           Office of Inspector General




September 12, 2006

WILLIAM ALMARAZ
MANAGER, LOS ANGELES CUSTOMER SERVICE DISTRICT

SUBJECT:          Audit Report – Efficiency Review of the Los Angeles, California, Worldway
                  Airport Mail Center (Report Number NO-AR-06-006)

This report presents the results of our review of the Los Angeles, California,
Worldway Airport Mail Center (AMC), located in the Pacific Area (Project Number
05WG012NO000). Our objective was to evaluate the efficiency of operations at the
Worldway AMC. This report is the first of two reports on the Worldway AMC. We
conducted these audits at the request of the Los Angeles District and the Pacific Area.

Although the Worldway AMC has reduced workhours, it could further improve
operational efficiency. Specifically, the Worldway AMC did not fully adjust workhours in
response to changes in workload, use mechanized equipment effectively, and staff
operations commensurate with the workload.

Based on fiscal year (FY) 2004 usage,1 the Worldway AMC could improve operational
efficiency by reducing mail processing and maintenance workhours by 760,000, which
could produce a cost avoidance of more than $192 million in labor savings during a
10-year period. We will report these workhour savings as funds put to better use in our
Semiannual Report to Congress.

We made four recommendations in the report. Management agreed with our finding,
recommendations, and monetary impact and has initiatives in progress, completed, or
planned addressing the issues in this report. Management’s comments and our
evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendation 1
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when management has completed corrective actions.
This recommendation should not be closed in the follow-up tracking system until the
OIG provides written confirmation the recommendation can be closed.




1
 We used FY 2004 workhours for comparison because FY 2004 was the last complete fiscal year before the
Worldway AMC eliminated mail processing operations.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Michael J. Daley
    Kenneth R. Lucas
    Steven R. Phelps
Efficiency Review of the Los Angeles, California,                         NO-AR-06-006
 Worldway Airport Mail Center



                                     TABLE OF CONTENTS

 Executive Summary                                                                  i

 Part I

 Introduction                                                                      1

     Background                                                                    1
     Objective, Scope, and Methodology                                             2
     Prior Audit Coverage                                                          2

 Part II

 Audit Results                                                                     3

     Assessment of Resources at the Los Angeles Worldway Airport Mail Center       3
     Recommendations                                                              11
     Management’s Comments                                                        12
     Evaluation of Management’s Comments                                          12

 Appendix A. Pacific Area Customer Service Districts by Three-Digit ZIP           13
             Code Area

 Appendix B. Prior Audit Coverage                                                 14

 Appendix C. Worldway Airport Mail Center Cost Avoidance                          15
             (Funds Put to Better Use)

 Appendix D. Management’s Comments                                                16
Efficiency Review of the Los Angeles, California,                               NO-AR-06-006
 Worldway Airport Mail Center




                    CHARTS, TABLES, AND ILLUSTRATIONS
     Chart 1:          FY 2004 Mail Processing Workhours by Labor Distribution            4
                       Code

     Table 1:          Use of Mechanized and Automated Equipment                          5

     Illustration 1: Mail on green equipment travels to manual keyers. Note that          7
                     the automated blue equipment is empty.

     Illustration 2: Manual keyer on universal sorter with no mail to key.                8

     Illustration 3: Mail sent to unstaffed keying station on sack sorter machine.        9

     Illustration 4: Better scheduling would ensure that sufficient staff was            10
                     available to process incoming mail.
Efficiency Review of the Los Angeles, California,                                               NO-AR-06-006
 Worldway Airport Mail Center



                                    EXECUTIVE SUMMARY
    Introduction                 The U.S. Postal Service Office of Inspector General
                                 evaluated the efficiency of operations at the Worldway
                                 Airport Mail Center (AMC). The Worldway AMC is located
                                 in the Pacific Area and is part of the Los Angeles Customer
                                 Service District. This audit is the second in a series of
                                 efficiency audits covering the Los Angeles Customer
                                 Service District. We conducted this audit at the request of
                                 the Los Angeles Customer Service District manager and in
                                 cooperation with the Pacific Area.

    Results in Brief             Although the Worldway AMC has improved efficiency
                                 by reducing workhours, opportunities exist for more
                                 improvement. Specifically, the Worldway AMC did not
                                 fully adjust workhours in response to changes in workload,
                                 use mechanized equipment effectively, and staff operations
                                 commensurate with the workload.

                                 These conditions existed because the U.S. Postal Service
                                 did not evaluate operational efficiency, establish
                                 performance standards for mail processing operations,
                                 provide adequate supervision, and define a clear mission
                                 statement for the Worldway AMC.

                                 Consequently, the Worldway AMC used more resources
                                 than necessary to process its mail volume. Based on fiscal
                                 year (FY) 2004 usage,2 improving efficiency of the
                                 Worldway AMC could reduce mail processing workhours by
                                 700,000 and maintenance workhours by 60,000. This
                                 workhour reduction could produce a cost avoidance of more
                                 than $192 million in labor savings during a 10-year period.

    Summary of                   We recommended the manager, Los Angeles Customer
    Recommendations              Service District, reduce mail processing and maintenance
                                 workhours by 760,000 by the end of FY 2010. We also
                                 recommend that the manager evaluate operating efficiency
                                 and staffing.




2
 We used FY 2004 workhours for comparison because FY 2004 was the last complete fiscal year before the
Worldway AMC eliminated mail processing operations.



                                                      i
Efficiency Review of the Los Angeles, California,                                   NO-AR-06-006
 Worldway Airport Mail Center




 Summary of                      Management agreed with our finding, recommendations,
 Management’s                    and associated monetary impact. Management indicated
 Comments                        they have already begun to address the recommended
                                 workhour reductions. They are also improving their
                                 leadership capability and reviewing the low-cost tray sorter
                                 requirements. Management’s comments, in their entirety,
                                 are included in Appendix D.

 Overall Evaluation of           Management’s comments are responsive to the audit
 Management’s                    finding and recommendations. The comments indicate
 Comments                        management is taking a proactive approach to improving
                                 efficiency. Management’s actions taken or planned should
                                 correct the issues identified in the report.




                                                    ii
Efficiency Review of the Los Angeles, California,                                                          NO-AR-06-006
 Worldway Airport Mail Center



                                               INTRODUCTION
    Background                         An airport mail center (AMC) is a postal facility located at or
                                       adjacent to an airport. As of July 2005, the U.S. Postal
                                       Service had 71 of these facilities.3 An AMC serves as the
                                       transfer point for mail being tendered to the airlines. It
                                       assigns mail to flights; receives and dispatches mail to and
                                       from air carriers; accepts and sorts mail to and from plants;
                                       performs measurement and quality control of air carrier
                                       operations; and manages functions specific to airport
                                       operations.

                                       In fiscal year (FY) 2005, 35 of these facilities (49 percent)
                                       also processed mail volume. However, the Postal Service
                                       has decided to standardize these facilities, streamline
                                       operations, and eliminate all non-core operations. These
                                       facilities will be renamed airport transfer centers (ATC) and
                                       will only facilitate the transportation of mail to and from
                                       airlines.

                                       The Worldway AMC is located in the Los Angeles,
                                       California, Customer Service District in the Pacific Area.
                                       (See Appendix A for Pacific Area districts.) The Worldway
                                       AMC processed more than 340 million first handling pieces
                                       (FHP)4 and used 1.5 million workhours in FY 2004. In
                                       January 2005, the Worldway AMC began the transition to
                                       an ATC, and by April 2005, all automation equipment for
                                       mail processing operations was removed from the site.
                                       However, the Worldway AMC continued to manually
                                       process mail on a sporadic basis for the Los Angeles Bulk
                                       Mail Center and for the Los Angeles Processing and
                                       Distribution Center (P&DC).

                                       The Postal Service owns the Worldway AMC building,
                                       but leases the land from the Los Angeles Department
                                       of Airports for $900,000 annually. The building contains
                                       313,071 square feet of interior space, with a platform
                                       of 15,096 square feet, on a site with dimensions of
                                       342,848 square feet.



3
  We use the term “facilities” to describe both airport mail centers and facilities. Airport mail centers and facilities
perform essentially the same functions and have the same operations, but the centers are generally larger than the
facilities.
4
  An FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.


                                                                        1
Efficiency Review of the Los Angeles, California,                                                  NO-AR-06-006
 Worldway Airport Mail Center




    Objective, Scope, and           The objective of the audit was to evaluate the efficiency of
    Methodology                     the Worldway AMC mail processing operation. To
                                    accomplish the objective, we interviewed Postal Service
                                    officials; analyzed mail volume, workhours, and machine
                                    output; reviewed mail arrival profiles and employee work
                                    schedules; benchmarked against other sites; and observed
                                    mail processing operations.

                                    We relied on Postal Service data systems, including the
                                    National Workhour Reporting System, Web Enterprise
                                    Information System, Web End of Run System, Web
                                    Complement Information Systems, Management Operating
                                    Data Systems (MODS), National Maintenance Activity
                                    Reporting and Scheduling System, Workhour Estimator
                                    Program (WHEP),5 and Enterprise Data Warehouse
                                    System. We did not test the controls over these systems.
                                    However, we checked the accuracy and reasonableness of
                                    the data by confirming our analysis and results with Postal
                                    Service managers and by consulting different data sources.
                                    We found no material differences.

                                    We conducted this audit from February 2005 through
                                    September 2006 in accordance with generally accepted
                                    government auditing standards and included such tests
                                    of internal controls as we considered necessary under
                                    the circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate.

    Prior Audit Coverage            We have issued 19 audit reports on operational efficiency.
                                    As a result of these audits, the Postal Service has agreed to
                                    reduce approximately 1.6 million workhours. These
                                    reductions could produce a cost avoidance of about
                                    $501 million over 10 years. (See Appendix B for details.)




5
 The WHEP estimates workhours for mail processing equipment (miscellaneous postal equipment and major
equipment), building and building equipment, field maintenance operations, and maintenance operations support.
The WHEP is used in plants, stations, branches, annexes, airmail centers, and other facilities.

                                                                   2
Efficiency Review of the Los Angeles, California,                                                  NO-AR-06-006
 Worldway Airport Mail Center




                                                 AUDIT RESULTS
      Assessment of                   The Postal Service could improve the efficiency of the
      Resources at the                Worldway AMC’s mail processing operation and more
      Los Angeles                     effectively use resources at the facility. Specifically, the
      Worldway Airport                Worldway AMC did not:
      Mail Center
                                           •   Fully adjust mail processing and maintenance
                                               workhours in response to changes in workload.

                                           •   Use mechanized equipment effectively.

                                           •   Staff mail processing and maintenance operations
                                               commensurate with the workload.

                                      39 U.S.C., Chapter 4, § 403 (a) states, “The Postal Service
                                      shall plan, develop, promote, and provide adequate and
                                      efficient postal services . . . .”

                                      Although Postal Service management adjusted workhours
                                      according to budget allocations, they did not
                                      comprehensively evaluate operational efficiency after
                                      changes occurred in the local network. In addition, the
                                      Postal Service had not established performance standards,
                                      provided adequate supervision, or defined a clear mission
                                      statement. Consequently, the Worldway AMC used more
                                      workhours than necessary to process its mail volume.

      Mail Processing                 Mail processing workhours were not adequately adjusted
      Workhour Adjustments            based on workload. In January 2005, the Postal Service
                                      began removing all automation equipment for mail
                                      processing operations from the Worldway AMC in response
                                      to a headquarters initiative to transition to an ATC. All FHP
                                      mail volume was also redirected to other mail processing
                                      facilities.6 The Los Angeles P&DC received the majority of
                                      this mail.

                                      However, the Postal Service did not fully adjust workhours in
                                      response to this diminished workload. For example, before
                                      this operational change, in FY 2004, the Worldway AMC




6
    FHP volume does not capture all mail volume at the site. The MODS reports only automated volume.

                                                                    3
Efficiency Review of the Los Angeles, California,                                                              NO-AR-06-006
 Worldway Airport Mail Center




                                     used approximately 36 percent of its total Function 1 (mail
                                     processing) workhours7 to process 340 million FHPs. The
                                     chart below shows operations by labor distribution codes
                                     (LDC).
                                                                                  LDC 10
                                                            LDC 18                6.54%      LDC 11
                                                             18%                               5%
                                                                                                      LDC 12
                                                                                                        5%




                                                                                                               LDC 13
                                                                                                                15%




                                                        LDC 17                                      LDC 14
                                                        39.55%                                       11%
                                                                                           LDC 15
                                                                                           0.09%


                                                 Chart 1: FY 2004 Mail Processing Workhours by LDC

                                     By removing this workload, the Postal Service should have
                                     decreased workhours by approximately 36 percent,8 or
                                     570,000 workhours, in LDCs 11 through 14. In addition, a
                                     corresponding decrease of 36 percent in workhours should
                                     also be made to LDC 17 (Other Direct Operations). This
                                     would result in a further workhour reduction of 225,000
                                     workhours, for a net total reduction of 795,000 workhours in
                                     Function 1.

                                     However, in discussions with the Postal Service, we found
                                     that some LDC 13 workhours were necessary for processing
                                     letter trays on the sack sorter operation. The Postal Service
                                     also advised that a 36 percent reduction in LDC
                                     17 workhours would be too large based on its existing
                                     workload. Consequently, we determined that reducing
                                     700,000 workhours in Function 1, based on the hours used
                                     in FY 2004, was reasonable given the facility’s residual
7
  Specific LDCs directly related to mail processing are LDC 11 (letter processing), LDC 12 (flats processing), LDC 13
(parcel sorting), and LDC 14 (manual sortation). In FY 2004, the Worldway AMC used 1,583,778 workhours in
Function 1 and 567,583 in LDCs 11 through 14.
8
  Since mail volume is no longer processed at the Worldway AMC, the workhours in LDCs 11, 12, 13, and 14 should
be reduced. The workhours used in these LDCs equaled 36 percent of total Function 1 workhours — 5 percent in
LDC 11, 5 percent in LDC 12, 15 percent in LDC 13, and 11 percent in LDC 14.
9
  Through our discussions with management we determined an additional 3 percent of total Function 1 workhours
was needed for both LDC 13 and LDC 17, resulting in additional workhours of 95,000.

                                                                     4
Efficiency Review of the Los Angeles, California,                                                      NO-AR-06-006
 Worldway Airport Mail Center



                                     workload.9 Management agreed to this aggressive
                                     workhour reduction and began reducing workhours during
                                     the audit.

                                     In addition, the Worldway AMC’s workload will be
                                     transferred primarily to the Los Angeles P&DC. The
                                     Los Angeles P&DC has sufficient capacity to absorb this
                                     workload without the use of additional workhours.10

     Maintenance Workhour Maintenance workhours were not aligned with the workload.
     Adjustments          In April 2005, the Worldway AMC eliminated the use of
                          automated and mechanized equipment,11 except for the
                          universal sorter and sack sorter machines. This was
                          accomplished when the Worldway AMC transitioned to an
                          ATC. Table 1 shows the machines and automated
                          equipment used at the end of FY 2004 compared to usage
                          in April 2005.

                                                              Table 1:
                                             Use of Mechanized and Automated Equipment

                                       Machine Equipment                 End of FY 2004            April FY 2005

                                       1 Automated Flat
                                       Sorting Machine 100                         X
                                       1 Delivery Barcode
                                       Sorter                                      X
                                       4 Multiline Optical
                                       Character Readers                           X
                                       1 Small Parcel
                                       Bundle Sorter                               X
                                       2 Upgraded Flat
                                       Sorting Machines
                                       1000                                        X
                                       1 Universal Sorter                          X                        X
                                       1 Sack Sorter
                                                                                                            X
                                       Machine                                     X

                                     Before eliminating its mechanized and automated mail
                                     processing equipment, the Worldway AMC used more than
10
   We found that in FY 2004, the Los Angeles P&DC had the capacity to process an additional 694 million pieces.
This excess capacity could absorb the Worldway AMC FY 2004 workload of approximately 401 million pieces.
11
   Mechanized equipment requires operator input on each mailpiece and is used to sort letters, flats, and parcels.
Automated equipment uses technology to sort mail with little operator intervention.


                                                                     5
Efficiency Review of the Los Angeles, California,                                  NO-AR-06-006
 Worldway Airport Mail Center



                                   92,000 workhours in FY 2004 for repair and preventive and
                                   operational maintenance and 52,000 workhours for custodial
                                   operations.

                                   However, after the machines were eliminated, the
                                   associated workhours necessary for repair and preventive
                                   and operational maintenance of these machines were not
                                   substantially reduced. According to the maintenance cost
                                   breakdown report in the National Maintenance Activity
                                   Reporting and Scheduling System, maintenance costs
                                   associated with the machines that were removed
                                   represented 42 percent of total costs. Consequently, the
                                   Postal Service should have decreased workhours by
                                   42 percent, or about 39,000.

                                   In addition, the removal of the machines left the second
                                   floor of the facility empty (representing about 40 percent of
                                   the total square footage) except for registry operations and
                                   the storage of excess equipment. The Postal Service had
                                   roped off the unused area and sealed unused restrooms,
                                   reducing the need for custodial care. Based on this
                                   reduction in usable floor space, we estimate that custodial
                                   workhours could be reduced by 40 percent, or approximately
                                   21,000 workhours based on FY 2004 usage.

                                   Based on this analysis, we concluded that the Postal
                                   Service needed to reduce maintenance workhours by
                                   60,000. We corroborated our analysis by using the Postal
                                   Service's WHEP, which indicated that workhours should be
                                   reduced by 59,000. Management agreed that reducing
                                   maintenance workhours by 60,000 was reasonable and
                                   began reducing workhours during the audit.

   Effectiveness of                The Postal Service did not use mechanized equipment
   Mechanized                      effectively. The Worldway AMC currently uses two types of
   Equipment                       mechanized equipment — a universal sorter with an
                                   automated tray line and a sack sorter machine.

                                   We noted that automation capabilities on the universal sorter
                                   were not used effectively. For example, rather than induct
                                   mail through the universal sorter’s automated reader, mail
                                   was directed to keyers for manual processing. This resulted
                                   in using more workhours than necessary to process the
                                   mail. (See Illustration 1.)




                                                           6
Efficiency Review of the Los Angeles, California,                                                    NO-AR-06-006
 Worldway Airport Mail Center




                                     Illustration 1: Mail on green equipment travels to manual keyers. Note that the
                                     automated blue equipment is empty.

                                     We also observed that the sack sorter machine processed
                                     the majority of letter tray mail at the Worldway AMC. Sack
                                     sorter machines were not designed to process rectangular
                                     trays.12 Sorting trays on the sack sorter can sometimes
                                     result in trays (which carry an average of 500 pieces of mail)
                                     breaking open and spilling mail over the conveyor belt. In
                                     addition, sorting trays in this fashion can result in labels
                                     coming loose from the tray. Consequently, letter trays may
                                     need to be reloaded, restrapped, relabeled, and reworked,
                                     resulting in additional processing workhours.

                                     To solve this problem, the Worldway AMC could replace the
                                     sack sorter machine with a more efficient tray sorter,
                                     resulting in additional workhour savings.




12
   Government Accountability Office (GAO) report, The Service’s Strategy for Realigning Its Mail Processing
Infrastructure Lacks Clarity, Criteria, and Accountability (Report Number GAO-05-261, April 2005) discussed sack
sorting machines.

                                                                    7
Efficiency Review of the Los Angeles, California,                                                      NO-AR-06-006
 Worldway Airport Mail Center




     Employee Staffing              We observed that13 staffing of certain operations was not
                                    commensurate with the workload for both mail processing
                                    and maintenance employees. For example:

                                         •   The universal sorter machine and sack sorter
                                             machine belts were not staffed according to workload.
                                             For example, the belts were staffed when manual
                                             keyers were on break; and when the keyers were in
                                             place, the belts were empty. (See Illustrations 2
                                             and 3.)




               Manual keyer




                                    Illustration 2: Manual keyer on universal sorter with no mail to key.




13
  Observations were conducted during a 14-day period in July 2005, at various times and days to cover all tours and
days of operations.

                                                                     8
Efficiency Review of the Los Angeles, California,                                                    NO-AR-06-006
 Worldway Airport Mail Center




                                   Illustration 3: Mail sent to unstaffed keying station on sack sorter machine.

                                       •    Maintenance positions were eliminated according to
                                            seniority, but jobs had not been reposted, creating
                                            imbalances in employee scheduling. In some
                                            instances, too many employees were scheduled on a
                                            particular day and tour, and too few on other days or
                                            tours.

                                       •    The scheduling of mail processing clerks was not in
                                            line with anticipated workload. In several instances,
                                            too many or too few employees were scheduled
                                            based on the available workload. (See Illustration 4.)




                                                                   9
Efficiency Review of the Los Angeles, California,                                                       NO-AR-06-006
 Worldway Airport Mail Center




                                     Illustration 4: Better scheduling would ensure that sufficient staff was available
                                     to process incoming mail.

     Cause and Impact on             To the Postal Service’s credit, they had addressed
     Operations                      operational efficiency at the Worldway AMC by reducing
                                     workhours in response to budgeted workhours.14 During our
                                     review, they reduced FY 2005 workhours.

                                     However, several factors contributed to inefficiency at the
                                     Worldway AMC. First, the Postal Service did not evaluate
                                     operational efficiency and establish performance standards
                                     for ATC mail processing operations. Second, increased
                                     supervision and better scheduling were needed to ensure
                                     staff and workload alignment. The inadequate supervision
                                     was due to high supervisory turnover. Third, the AMCs’
                                     original mission was to serve as a transportation gateway for
                                     mail. However, over the years, many AMCs had taken on
                                     mail processing functions, causing some confusion as to
                                     their mission.

                                     In January 2005, headquarters clarified the AMCs’ strategic
                                     direction and began to eliminate mail processing at all
                                     AMCs. The Worldway AMC has substantially completed
                                     this task. Nevertheless, the Worldway AMC continues
                                     to manually process mail on a sporadic basis for the


14
  Budgeted workhours are workhours allocated to the facility at the beginning of the fiscal year and are shown as
planned workhours on the Postal Service FLASH Report. The FLASH Report is a weekly report consisting of a
compilation of hours and volumes by finance number and by LDC. It is a quick overview of important factors
pertaining to payroll data within a finance number.

                                                                     10
Efficiency Review of the Los Angeles, California,                                   NO-AR-06-006
 Worldway Airport Mail Center



                                   Los Angeles Bulk Mail Center and the Los Angeles P&DC.
                                   The work received from these other sites was labor-
                                   intensive and may have been more efficiently processed at
                                   another facility.

                                   Consequently, the Worldway AMC used more workhours
                                   than necessary to process mail. We estimated that the
                                   Worldway AMC needed to reduce mail processing and
                                   maintenance workhours by 760,000 based on FY 2004
                                   workhour usage. These workhour reductions could produce
                                   a cost avoidance of more than $192 million during the next
                                   10 years. (See Appendix C.)

                                   Attrition could be used to reduce workhours. Out of a total
                                   562 Worldway AMC employees, 191 (34 percent) were
                                   eligible to retire by the end of calendar year 2005, and
                                   330 (59 percent) will be eligible by the end of calendar
                                   year 2010.

   Postal Service Actions          The manager, Los Angeles Customer Service District
                                   agreed that by the end of FY 2010, they would reduce mail
                                   processing workhours by 700,000 and maintenance
                                   workhours by 60,000. The manager had already begun
                                   reducing workhours during the audit and was responsive to
                                   improving operations. In addition, we found that the
                                   manager was committed to making continuous efficiency
                                   improvements throughout the district and taking advantage
                                   of all resources available.

   Recommendations                 To improve efficiency, we recommend the manager,
                                   Los Angeles Customer Service District:

                                       1. Reduce mail processing and maintenance workhours
                                          by 760,000 at the Worldway Airport Mail Center,
                                          based on fiscal year 2004 usage, by the end of fiscal
                                          year 2010. This workhour reduction could result in a
                                          cost avoidance of more than $192 million based on
                                          labor savings during a 10-year period. In addition,
                                          the Los Angeles Processing and Distribution Center
                                          should process the volume transfer from Worldway
                                          Airport Mail Center without increasing workhours.

                                       2. Evaluate operating efficiency and staffing to
                                          determine whether further workhour adjustments are
                                          necessary based on workload for airport transfer
                                          center functions.

                                                          11
Efficiency Review of the Los Angeles, California,                                    NO-AR-06-006
 Worldway Airport Mail Center




                                       3. Provide adequate supervision and performance
                                          standards and improve employee scheduling.

                                       4. Eliminate the sack sorter machine and consider
                                          obtaining a low-cost tray sorter with automated airline
                                          assignment capabilities.

   Management’s                  Management agreed with our finding, recommendations,
   Comments                      and associated monetary impact. Management indicated
                                 they have already begun to address the recommended
                                 workhour reductions. They are also improving their
                                 leadership capability and reviewing the low-cost tray sorter
                                 requirements.

   Evaluation of                 Management’s comments are responsive to the audit
   Management’s                  finding and recommendations. The comments indicate
   Comments                      management is taking a proactive approach to improving
                                 efficiency. Management’s actions taken or planned should
                                 correct the issues identified in the finding.




                                                           12
Efficiency Review of the Los Angeles, California,                              NO-06-AR-006
 Worldway Airport Mail Center


                                                    APPENDIX A
                                         PACIFIC AREA CUSTOMER SERVICE
                                      DISTRICTS BY THREE-DIGIT ZIP CODE AREA




                                                              13
      Efficiency Review of the Los Angeles, California,                                      NO-AR-06-006
       Worldway Airport Mail Center



                                                     APPENDIX B
                                                PRIOR AUDIT COVERAGE


                                                                           Issued     Workhour     Monetary
                    Audit                           Report Number           Date      Savings        Impact
Washington D.C., BMC15                               NO-AR-06-003        2/22/2006      400,000    $118,000,000
Chicago, IL, AMRU16                                  NO-AR-06-002        12/22/2005       3,860        1,100,000
Canton, OH, P&DC17                                   NO-AR-05-013        9/22/2005      202,000       63,000,000
Los Angeles, CA, ISC18                               NO-AR-05-011         6/17/2005      85,000       26,100,000
Los Angeles, CA, ISC AMRU                            NO-AR-05-010        4/28/2005        5,450        1,800,000
San Francisco, CA, AMRU                              NO-AR-05-012         9/6/2005        7,757        2,600,000
Akron, OH, P&DC                                      NO-AR-05-009         3/30/2005     235,000       74,000,000
Mansfield, OH, Main Post Office                      NO-AR-05-004        12/8/2004       52,000       17,200,000
New York, NY, ISC                                    NO-AR-04-009         9/24/2004     320,000       98,000,000
New York, NY, ISC AMRU                               NO-AR-04-011        9/24/2004       30,000        9,300,000
San Francisco, CA, ISC and GSA19 Facility            NO-AR-04-006        3/31/2004      120,000       44,200,000
Oakland, CA, ISC and the Regatta Facility            NO-AR-04-007         3/31/2004      25,000       17,013,959
Springfield, VA, BMEU20                              NO-AR-04-004         2/9/2004        2,775          969,893
Columbia, MD, BMEU                                   NO-AR-04-002        12/26/2003       3,960        1,400,000
Southern MD, BMEU                                    NO-AR-04-001        12/24/2003      20,240        8,400,000
San Francisco, CA, BMEU                              AO-AR-03-002        9/25/2003       18,000        6,900,000
Los Angeles, CA, BMEU                                AO-AR-03-001        7/31/2003       28,000        9,300,000
Seattle, WA; Minneapolis, MN; and Des Moines,        CQ-AR-03-001        3/28/2003       15,053          588,730
IA, BMEUs
Colorado/Wyoming Performance Cluster,                CQ-AR-02-001        9/26/2002       15,947       1,000,000
BMEUs
Total Savings                                                                          1,590,042   $500,872,582




      15
         Bulk Mail Center
      16
         Airmail Records Unit
      17
         Processing and Distribution Center
      18
         International Service Center
      19
         General Services Administration
      20
         Business Mail Entry Unit



                                                                    14
Efficiency Review of the Los Angeles, California,                                                NO-AR-06-006
 Worldway Airport Mail Center




                                                     APPENDIX C
                                     WORLDWAY AIRPORT MAIL CENTER COST AVOIDANCE
                                              (FUNDS PUT TO BETTER USE)


        Recommended Action                                                    Timeframe: 10 Fiscal Years
               and                             Workhour
         Employee Category                     Reduction
             Impacted                                                                          Discounted Savings
                                                                  Undiscounted Savings
                                                                                               (Net Present Value)

 Function 1 Mail Processing                      700,000                $246,511,202              $175,761,332
 Function 3B Maintenance                          60,000                  23,019,293                16,412,648


 Total                                          760,000*                $269,530,494              $192,173,980
* Workhours calculated by multiplying number of positions by 2,000 workhours per staff year.


NOTES

    •    The 760,000 workhour reduction was based on Postal Service management’s plan to reduce workhours over a 5-year period, based on FY 2004 usage
         of approximately 1.5 million workhours.
    •    The cost avoidance was calculated using the savings in hours multiplied by the escalated labor rate for a 10-year period.
    •    The net present value was calculated using the discount rate of 5.25 percent for a 10-year period.
    •    Labor rates were based on the Postal Service’s March 2004 published rates for a level 05 (PS-05) mail processing clerk and a level 08 (PS-08)
         maintenance employee.
    •    The yearly escalation factor is 2.7 percent, based on the Postal Service’s Decision Analysis Factors effective October 2004.




                                                                                          15
Efficiency Review of the Los Angeles, California,        NO-AR-06-006
 Worldway Airport Mail Center


                                  APPENDIX D
                           MANAGEMENT’S COMMENTS




                                                    16
Efficiency Review of the Los Angeles, California,        NO-AR-06-006
 Worldway Airport Mail Center




                                                    17
